July 17, 2009

MEGAN J. BRENNAN
VICE PRESIDENT, EASTERN AREA OPERATIONS

SUBJECT:        Audit Report – Postal Vehicle Service Transportation –
                Philadelphia Bulk Mail Center (Report Number NL-AR-09-005)

This report presents the results of our audit of the Philadelphia, PA, Bulk Mail
Center’s (BMC) Postal Vehicle Service (PVS) transportation (Project Number
09XG021NL000). Our objectives were to determine whether selected PVS vehicle
operations were effective and economical. The report is the seventh in a series of
reports responding to a request from the Postmaster General and Chief Executive
Officer (PMG) and Vice President, Network Operations. See Appendix A for additional
information about this audit.

Conclusion

The Philadelphia BMC PVS operations were effective in moving trailers and equipment.
However, the BMC workhours assigned to yard activities did not match the productivity
standards for this function. We concluded Philadelphia BMC management could phase
out 12,250 workhours by following established productivity standards and save about
$4.3 million over 10 years without negatively affecting service. See Appendix B for our
detailed analysis of this topic.

Management Action

Philadelphia BMC management began taking action during our audit to make PVS
operations more efficient by reducing some workhours and saving the U.S. Postal
Service money.

We recommend the Vice President, Eastern Area Operations:

1. Verify the removal of 3,500 workhours that management identified during our audit.

2. Phase out the additional 8,750 workhours that management agreed were in excess
   of the workload.

3. Ensure the Bulk Mail Center managers periodically assess Postal Vehicle Service
   workload and staffing requirements to maintain appropriate staffing levels.


      This report has not yet been reviewed for release under FOIA or the Privacy
      Act. Distribution should be limited to those within the Postal Service with a
      need to know.
Postal Vehicle Service Transportation –                                NL-AR-09-005
 Philadelphia Bulk Mail Center


Management’s Comments

Management agreed with our findings and recommendations. While management
agreed with our first year potential savings estimate, they did not agree with the 10-year
estimated cost avoidance. Management stipulated that significant operational changes
occurring at the Philadelphia BMC, driven by Network Distribution Center transformation
and Priority Mail processing, will have significant impacts on the vehicle operations
workload. Management stated that the “varying phases and planning stages of these
changes as well as the impacts they will have on the transportation over time are
uncertain.” The Eastern Area has already verified the removal of 3,500 hours, and
plans are in place to remove the additional hours identified in our audit. In addition,
management stated they will continue to hold bi-weekly meetings to discuss, analyze,
and review PVS operations and will provide re-fresher training on the operations before
the beginning of FY 2010. Management’s comments, in their entirety, are included in
Appendix C.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations, and the corrective actions should
resolve the issues identified in the report. Although management did not agree with our
total monetary impact, we believe our estimates are valid based on the best data
available and on current PVS operations at the facility.

We will report $4,336,804 of monetary impact of funds put to better use in our
Semiannual Report to Congress.

The OIG considers recommendations 2 and 3 significant and, therefore, requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
management completes corrective actions. These recommendations should not be
closed in the Postal Service’s follow-up tracking system until the OIG provides written
confirmation that the recomenndations can be closed.




                                            2
Postal Vehicle Service Transportation –                             NL-AR-09-005
 Philadelphia Bulk Mail Center



We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Jody Troxclair, Director,
Transportation, or me at (703) 248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc:     Patrick R. Donahoe
        William P. Galligan
        Jordan M. Small
        Cynthia F. Mallonee
        Pamela S. Grooman
        Katherine S. Banks




                                          3
Postal Vehicle Service Transportation –                                                   NL-AR-09-005
 Philadelphia Bulk Mail Center



                             APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Postal Service transportation includes both nationwide network transportation between
cities and major facilities and delivery transportation between local post offices and
neighborhood delivery and pickup points. Network transportation using Postal Service
vehicles and employees is called PVS. Management typically assigns PVS vehicles
and personnel to Postal Service network facilities, such as BMCs or processing and
distribution centers in or near metropolitan areas. PVS operations are normally
conducted within 50 miles of 162 Postal Service facilities nationwide. PVS drivers travel
about 150 million miles every year. Because PVS operations are local, they are
managed at the facility level under guidance from district, area, and headquarters
transportation officials.




                               At the Philadelphia BMC, as with all BMCs, PVS assets
                             are primarily used for yard operations. February 27, 2009.

PVS is capital and personnel intensive. The Postal Service’s total PVS capital assets
include 2,222 cargo vans, 1,869 tractors, and 4,182 trailers. Employees service and
repair these vehicles at 319 Postal Service vehicle maintenance facilities (VMFs) or
VMF Auxiliaries 1 and local commercial garages nationwide. PVS currently involves
about 10,000 employees, including 8,482 uniformed drivers, 621 administrative support
personnel, and 963 managers. The American Postal Workers Union (APWU)
represents PVS drivers and support personnel. PVS activities at BMCs are limited to
“yard operations,” which is the movement of trailers and equipment in or around the
facility.




1
    A VMF Auxiliary is an extension of a VMF.




                                                         4
Postal Vehicle Service Transportation –                                     NL-AR-09-005
 Philadelphia Bulk Mail Center


OBJECTIVES, SCOPE, AND METHODOLOGY

This report directly responds to a request from the PMG regarding the overall adequacy
of mail transportation in Philadelphia. It also responds to a requested from the Vice
President, Network Operations that we audit PVS operations nationwide. Because
individual facilities control PVS operations, we localized our audit approach. This report
focuses on PVS operations at the Philadelphia BMC in the Postal Service’s Eastern
Area. The objectives of our audit were to determine whether PVS operations were
effective and economical.

During our work, we visited the Philadelphia BMC and other regional facilities. We
reviewed relevant Postal Service policies and procedures, interviewed managers and
employees, and observed and photographed operations.

We obtained computer-generated data from management that included a consecutive
26-week period from August 9, 2008, through February 6, 2009. According to
management, this data represented the total PVS yard operational workload for the
period, and 102,601 yard operational events were identified. We examined this
workload, in conjunction with previously established Postal Service productivity
standards for BMC PVS operations. We conducted the analysis to determine whether
management could reduce workhours and labor costs.




            The view from the inside of a
           Philadelphia BMC PVS tractor.                PVS driver yard operations are
                 February 26, 2009.                    typically directed electronically.
                                                              February 26, 2009.



We conducted this performance audit from January through July 2009 in accordance
with generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for



                                            5
Postal Vehicle Service Transportation –                                          NL-AR-09-005
 Philadelphia Bulk Mail Center


our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management on May 20, 2009, and included their
comments where appropriate.

We did not audit or comprehensively validate the computer-generated data used in our
analyses; however, on a limited basis, we did compare the PVS yard operation activities
we recorded to data recorded in management’s system, and found the data sufficiently
reliable for the purposes of our audit. We also applied conservative principles to our
workhour and cost reduction estimates.

PRIOR AUDIT COVERAGE

At the request of the Vice President, Network Operations, the OIG has previously
worked with the Postal Service to reduce PVS workhours and costs. As indicated by
the following chart, since March 2007, we have issued six audit reports that identified
labor and other potential savings exceeding $43.7 million. This report has the same
objectives and comparable results.

                                                                                          Monetary
                                                     Report                                Impact
                  Report Title                       Number       Final Report Date     (in millions)
Postal Vehicle Service Transportation Routes –
                                                   NL-AR-07-003     March 30, 2007               $7.3
Memphis Processing and Distribution Center
Postal Vehicle Service Transportation –
                                                   NL-AR-07-006   September 21, 2007              4.9
Los Angeles Bulk Mail Center
Postal Vehicle Service Transportation Routes –
                                                   NL-AR-07-007   September 27, 2007              4.0
Milwaukee Processing and Distribution Center
Postal Vehicle Service Transportation Routes –
                                                   NL-AR-08-003     March 26, 2008               10.1
San Francisco Processing and Distribution Center
Postal Vehicle Service Transportation Routes –
Northern Virginia Processing and Distribution      NL-AR-08-006   September 25, 2008              8.0
Center
Postal Vehicle Service Transportation Routes –
                                                   NL-AR-09-001   February 13, 2009               9.3
Minneapolis Processing and Distribution Center
                     Total                                                                      $43.7




                                                    6
Postal Vehicle Service Transportation –                                                   NL-AR-09-005
 Philadelphia Bulk Mail Center


                               APPENDIX B: DETAILED ANALYSIS

Excess Workhours and Cost Reductions for Postal Vehicle Service Operations

Although Philadelphia BMC PVS operations were effective in moving trailers and
equipment, Postal Service management could make operations more economical by
aligning workhours to standards and by better managing trailers to the declining mail
volume. We found:

    •   Philadelphia BMC PVS drivers were averaging about 28 moves2 per workday,
        while the established productivity standard average is 40 moves per workday.
        Our observations of yard operations at the Philadelphia BMC, as well as our
        analysis of the operational workload data, confirmed that the established
        productivity standards were reasonable and obtainable for the PVS drivers at the
        facility.

    •   Since 2004, the number of trailers entering the Philadelphia BMC’s yard has
        declined more than 20 percent. According to Postal Service management this
        decline trend is continuing in fiscal year (FY) 2009; between October 2008 and
        February 2009, trailer receipts at the plant have declined more than 10 percent.

In 2005, the Postal Service’s Breakthrough Productivity Initiative established
productivity standards for BMC PVS operations that specify drivers (tractor trailer
operators) are expected to complete 40 trailer moves within an 8 workhour period.
Thus, one driver can accomplish 200 trailer moves within a BMC yard during a 40-hour
work week. Headquarters and senior area transportation managers have explained to
us that this productivity standard was reasonable and conservative.

This condition occurred because the BMC managers did not assess workload and
staffing requirements, based on a declining operational workload. We concluded that
the Eastern Area has an opportunity to phase out about 12,250 annual workhours
associated with PVS operations and save about $4.3 million over 10 years.

Management Actions

Philadelphia BMC management recognized the need for its PVS operations to be more
efficient and during our audit, began taking action to reduce operational workhours. In
April 2009, management provided us with copies of memorandums that notified the
APWU of their decision to reduce the driver complement by two positions because of
the decrease in PVS operational workload.3 Because of these recent management
actions, the Postal Service should realize savings of about $1.3 million over 10 years by

2
 A move consists of moving trailers and equipment from one location to another in the BMC yard.
3
 Reversion Notice of Position 95172071, Tractor Trailer Operator, was signed by the Philadelphia BMC’s Manager of
Transportation & Networks on February 13, 2009. Reversion Notice of Position 95357330, Tractor Trailer Operator,
was signed by the Manager of Transportation & Networks on March 2, 2009.




                                                        7
Postal Vehicle Service Transportation –                                                      NL-AR-09-005
 Philadelphia Bulk Mail Center


a reduction of 3,500 workhours. The Postal Service could achieve further savings of
about $3.0 million over 10 years (as depicted in Table 1) by phasing in a reduction of an
additional 8,750 workhours.4

                                     Table 1. Total Potential Savings

                                             FY 2009 Total5       FY 2010 (Annual)        10-Year Total6
                  Cost Category               (Phased in)              Total            (FY 2009 to 2018)
          Postal Initiated Savings                    $73,448              $144,482            $1,291,549
          Additional Potential Savings                        0             361,206              3,045,255
                       Total                          $73,448              $505,688            $4,336,804




4
  We analyzed total workload to workhours at the facility and applied established productivity standards of 40 moves
per hour. Based on our analysis, we identified a total reduction of 12,250 hours that could be achieved if standards
were met without affecting operations – or 8,750 hours more than management identified. We then applied
appropriate labor rates for PVS drivers to the hours to arrive at our projected amount of $3,045,255. Management
agreed with our recommended reduction.
5
  Our FY 2009 figures are conservative to allow for phase-in of workhour reductions during the year.
6
  The standard OIG practice for calculations of this type employs a 10-year cash flow methodology, discounted to
present value by applying factors published by Postal Service Headquarters Finance.




                                                          8
Postal Vehicle Service Transportation –                     NL-AR-09-005
 Philadelphia Bulk Mail Center



                        APPENDIX C: MANAGEMENT’S COMMENTS




                                          9
Postal Vehicle Service Transportation –        NL-AR-09-005
 Philadelphia Bulk Mail Center




                                          10
